No. 19-10522-DD

IN THE
SUPREME COURT OF THE UNITED STATES
Michael Bennett
Plaintiff-Petitioner
VS.
Marvel Entertainment
Defendant-Respondent
Mark Millar
Defendant- Respondent
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the petition for a writ of
certiorari contains

words, (7,306 words Word Processer plus 1,685

words Text in Pictures) excluding the parts of the of the petition that are exempted
by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on

AW ~7

2020

